CERTIFICATE OF SERVICE
NO. 19-715, 19-760
Trump et al.
Petitioners,
v.
Mazars USA LLP et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the BU LAW
PROFESSORS AMICUS AT MERITS STAGE IN SUPPORT OF RESPONDENT(S), by mailing three (3) true and
correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
William Spencer Consovoy
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel for Donald J. Trump, et al.

Douglas Neal Letter
Office of General Counsel, U.S. House of
Representatives
219 Cannon House Office Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov
Counsel for Committee on Oversight and Reform of
the U.S. House of Representatives

James Alwin Murphy
Murphy & McGonigle, P.C.
1185 Avenue of the Americas, Floor 21
New York, NY 23219
(212) 880-3968
jmurphy@mmlawus.com
Counsel for Capital One Financial Corporation

Pratik Arvind Shah
Akin Gump Strauss Hauer & Feld, LLP
2001 K Street N.W.
Washington, DC 20006
(202) 887-4210
pshah@akingump.com
Counsel for Deutsche Bank AG

Lucas DeDeus

March 3, 2020
SCP Tracking: Kealy-765 Commonwealth Avenue-Cover Dark Green

